U.S. Department of Justice
Office of the Inspector General




 A Review of the Norfolk Ship
 Jumping Incident




 C-4 Crack Cocaine




                    DRAFT



                                  Office of the Inspector General
                                                  December 2002
I.   Introduction
      This report describes the Office of the Inspector General’s (OIG)
investigation regarding the actions of Immigration and Naturalization Service
(INS) employees in connection with a “ship jumping” incident that occurred in
Norfolk, Virginia, in March 2002. When a Russian cargo ship docked in Norfolk
on March 16, 2002, the crew did not have individual visas, which generally are
required for entering the United States. Following a database search of the
crewmen by an INS Immigration Inspector and an inspection of the crew by an
INS Supervisory Immigration Inspector, the crew was granted a waiver of the visa
requirement. The Immigration Inspectors, however, had not requested or received
the proper authority for granting such a waiver. According to a change in INS
policy issued on November 28, 2001, approval for waivers had to be given by
certain INS officials in District Offices.
       Four of the 27 crewmen failed to return to the ship prior to its departure from
Norfolk on March 18, 2002. The four deserters, commonly referred to as “ship
jumpers,” were from Pakistan. When this incident came to light, the INS detailed
the Officer in Charge of the Norfolk Sub-Office, William Bittner, to the
Washington District Office. The media and some members of Congress also
focused significant attention on this incident, which occurred at the same time that
the INS was under scrutiny for having informed a Florida flight school six months
after the September 11 terrorist attacks that two of the terrorists’ change-of-status
applications had been approved previously.
      The OIG investigated the Norfolk incident to determine why the ship
jumpers had been given waivers in violation of the changed INS policy and
whether the Norfolk office had been notified of the changed policy. During our
investigation, the OIG interviewed over 40 INS employees, including Immigration
Inspectors, Supervisory Immigration Inspectors, Officers in Charge (OIC),
Assistant District Directors for Inspections, Assistant District Directors for
Examinations, Deputy District Directors, District Directors, Regional Directors,
and INS Headquarters officials. We interviewed individuals in the offices directly
involved in the Norfolk incident, as well as other randomly selected offices, to
determine if and how they received the changed policy for granting waivers.
      Following a brief background explanation of how alien crewmen can enter
the country and what happens when they fail to leave with their vessel, this report
describes the facts surrounding the Norfolk ship jumping incident and the INS’s
response to it. We discuss in detail whether the Norfolk office had been informed


                                          1
of the change in INS policy. We also examined broader issues as to the INS’s
general practice on disseminating policy changes throughout the INS. We found
that there is no uniformity as to how the INS disseminates new policies or ensures
compliance with new policies. At the end of our report, we make several
recommendations to improve the INS’s distribution of new policies.

II. Background

        A. INS Structure
       The INS is currently organized into three management components – INS
Headquarters, 3 regions, and 33 districts in the United States.1 Commonly, the
districts are collectively referred to as “the field.”
      The three INS regional offices – the Eastern Regional Office, the Central
Regional Office, and the Western Regional Office – serve as intermediary
managers of the districts. Each regional office is led by a Regional Director and a
Deputy Regional Director. The districts are managed by a District Director, a
Deputy District Director, and various Assistant District Directors. Some Districts
have sub-offices, which are led by OICs who report to the District Offices. OICs,
like District Directors, have responsibility for many INS program areas, including
investigations, inspections, detention and removal, and enforcement.
      The processing of nonimmigrants who arrive at points designated as legal
places through which to enter the country – known as ports of entry – is handled by
INS Immigration Inspectors and Supervisory Immigration Inspectors.
      The INS’s Office of Field Operations is most significantly involved in
supervising the day-to-day operations of the field and has responsibility for
implementing INS policies. When the new policy relevant to this review was
issued in November 2001, the Office of Programs was responsible for policy
development. Since mid-March 2002, the policy functions of the Office of
Programs relating to inspections have been placed under the Office of Field
Operations.




    1
      The INS also has three foreign district offices in Bangkok, Mexico City, and Rome, as well
as several other overseas offices.



                                               2
     B.   Visas and Visa Waivers

          1.   Entrance of nonimmigrants into the United States
      The Immigration and Nationality Act provides that aliens may be admitted to
the United States as nonimmigrants (that is, aliens who do not intend to
permanently reside in the United States) for “such time and under such conditions
as the Attorney General may by regulations prescribe.” 8 U.S.C. § 1184(a)(1).
Federal regulations state that every nonimmigrant must present at the time of entry
“a valid passport and a valid visa unless either or both documents have been
waived.” 8 CFR § 214.1(a)(3). These regulations also require non-immigrants to
depart the United States at the expiration of their authorized period of admission or
upon abandonment of their authorized nonimmigrant status. 8 CFR § 214.1(a)(3).

          2.   Crewmen visas
      Although immigration law normally requires nonimmigrants to have
individual valid passports and visas, crewmen of foreign vessels are permitted to
enter on a “crew list visa.” Crew list visas are obtained by a ship’s agent or master
from an American Consular Officer prior to the ship’s entry into the United States.
       In order to obtain a crew list visa, normally a representative of the ship will
take the crew list, which is written on an INS Form I-418, to a United States
embassy or consulate. If the crew list visa is granted, the Form I-418 will be
stamped with a “D” visa. There are times, however, when it is not feasible for
crew list visas to be obtained before the ship enters the United States – for
instance, when the ship receives orders to sail for the United States while at sea or
because the ship sails from a port where there is no U.S. Consulate. In those
situations, the INS may waive the visa requirement for the crew.
      Prior to a commercial cargo ship’s arrival in a port, the ship’s agent must
provide to the INS the crew list and Form I-418, with biographical information
about each crewman on the list. This is true regardless of whether the crew has
individual visas, a crew list visa, or no visas. Based on the list provided by the
agent, the assigned Immigration Inspector is supposed to check all the names on
the crew list against the Interagency Border Information System (IBIS), which
contains “lookout” databases maintained by the U.S. Customs Service; the State
Department; the Bureau of Alcohol, Tobacco and Firearms; the Drug Enforcement
Administration; the Royal Canadian Mounted Police; and other law enforcement
agencies. IBIS also includes warrants and arrests from the FBI’s National Crime



                                           3
Information Center (NCIC) database and lookouts posted in the INS’s National
Automated Immigration Lookout System (NAILS).
      After the relevant databases have been checked, the Immigration Inspector or
a Supervisory Immigration Inspector at the port of entry boards the ship and
personally inspects the documentation of the crew members who are seeking to
leave the ship. All individuals arriving in the United States, including alien
crewmen, should be inspected. The individual crewmen must present requested
documentation, such as a passport or a seaman book, and a Form I-95, Crewman’s
Landing Permit.2
      The statutory and regulatory standards for allowing alien crewmen to
temporarily land in the United States through a visa waiver are virtually identical.
8 U.S.C. § 1282; 8 C.F.R. § 252.1(d). Both sections provide that alien crewmen
who otherwise are admissible may be given a permit to land temporarily at the
discretion of the immigration officer. Neither section offers any criteria for
evaluating alien crewmen or for determining when it is appropriate to grant or deny
a request for a waiver of the normal documentary requirements of nonimmigrants
seeking to land in the United States.
       Thus, assuming that the ship agent is willing to pay the $195 fee for
admission of the crew, the computer check does not indicate a “hit” (an indication
of any record in the system for the crewman), and the inspector does not determine
that there is any other reason to deny the alien crewman entry, the inspector may
grant the crewman admission to the United States. In so doing, the inspector
stamps the crewman’s I-95 with the D-1 classification. A D-1 classification
indicates that the individual is an alien crewman who is necessary to the normal
operations of a vessel, the individual intends to land only temporarily, and the
crewman will depart with the vessel on which he arrived. 8 U.S.C. §
1101(15)(D)(i).
      In sum, crew members may only depart the vessel at a port of entry if they
have obtained an individual “D” visa, a crew list visa has been obtained for them
prior to arrival, they are granted a crew list visa waiver, or individual members of

    2
      A seaman’s book is a work history log for each seaman. It is maintained by the ship’s
captain and used to keep track of a seaman’s work history, job function, and training. It is
reviewed by INS staff at ports of entry to determine if the holder of the book is a bona fide
seaman. The landing permit is held by the crewmen and is endorsed to show the date and place
of admission and the type of landing permit they hold.



                                              4
the crew are paroled3 into the United States. Individual visas or parole of a
crewman apply to individuals, while a crew list visa or a crew list visa waiver
applies to several crewman or the whole crew. This report specifically deals with
crew list visa waivers.
      Alien crewmen who are allowed to enter the country based on D-1 visas, a
crew list visa waiver, or a parole are required to leave with their ship when it
departs or within 29 days, whichever occurs first. 8 U.S.C. §§ 1282(a)(1)-(2).
Deserting is the formal term used when a crewman has been permitted to leave the
vessel but fails to depart with the ship. However, departing commonly is referred
to as a “ship jumping.”
      It is the responsibility of the ship owner, agent, consignee, master, or
commanding officer to inform an immigration officer at the port where the ship is
located when there is a desertion. The failure to provide such notice can result in a
fine of $200 per desertion. 8 U.S.C. § 1281(d).

        C. Policy Change On Deferred Inspection, Parole, and Waivers of
           Documentary Requirements
      Within the INS, prior to November 2001 the decision whether to grant a
waiver of documentary requirements, including granting a crew list visa waiver,
was within the discretion of INS Immigration Inspectors in the field. These
decisions did not require approval beyond the port of entry.
      On November 28, 2001, the INS Executive Associate Commissioner Office
of Field Operations, Michael Pearson, issued a policy that, among other things,
changed how INS Inspectors at ports of entry were supposed to deal with
individuals seeking waivers of documentary requirements. Attached to Pearson’s
November 28, 2001, cover memorandum was the substance of the policy contained
in another memorandum, dated November 14, 2001 (hereinafter the November 14
memorandum), signed by Michael Cronin, then the Acting Executive Associate
Commissioner for the Office of Programs and currently the Assistant
Commissioner for Inspections. A copy of the November 14 memorandum and the
November 28 cover memorandum are attached as Exhibit A to this report.


    3
      Parole is not regarded as an "admission." Parole is sometimes granted for a limited
number of ship's personnel to conduct essential business when the remainder of the crew is
detained on board due to lack of a visa.



                                               5
      The November 14 memorandum provided that only District Directors,
Deputy District Directors, Assistant District Directors for Inspections, or Assistant
District Directors for Examinations had the authority to grant a waiver of any
documentary requirement. The new policy stated that the authority to grant a
waiver could not be delegated. The memorandum outlining the new policy stated,
“This guidance does not change the existing statutory and regulatory standards for
paroles and documentary waivers.” Therefore, the criteria for granting waivers,
which we described above, was unchanged by the new policy, but the authority to
grant waivers was given only to certain specified officials in the INS.4

III. Norfolk Incident

        A. Factual Chronology
       The INS’s Norfolk office is a sub-office within the INS’s Washington
District. Approximately 40 to 45 commercial vessels dock in Norfolk every
month. In Norfolk, shipping agents are required to give 96 hours’ notice before
their ships arrive, by providing a crew list to the Coast Guard. Pursuant to an
agreement between the Coast Guard and the INS, the Coast Guard faxes the INS a
copy of the crew list.
      The M/T Progreso, a Russian cargo ship, traveled to Norfolk from
Novorossiak, Russia, with a stop in Gibraltar. The ship provided the Coast Guard
with a crew list prior to its arrival on March 16, 2002. The Coast Guard
considered the M/T Progreso a routine arrival.
      The Coast Guard sent the crew list to the INS’s Norfolk Sub-Office on
March 15, 2002. At the Norfolk office, the crew list was given to an INS
Immigration Inspector. The shipping agent had not obtained a crew list visa
because the ship had come from Gibraltar, where there is no United States
Consulate, and the ship’s agent was not aware of the ship’s destination when it
departed Russia. Therefore, the crew needed a visa waiver to be allowed off the
ship.
     The INS’s Norfolk Sub-Office performed its normal evaluation process to
determine whether a visa waiver was appropriate. The Immigration Inspector ran


    4
      On September 30, 2002, the INS issued a memorandum that expanded the authority to
grant nonimmigrant unforeseen emergency waivers to Port Directors and OICs. See Exhibit B.



                                             6
the names on the crew list through the IBIS database. None of the names entered
drew a hit. There were, however, four or five names with incomplete information,
and those names could not be queried in IBIS. The Inspector highlighted the
names he was unable to check to alert the Supervisory Immigration Inspector who
was going to perform the actual ship inspection on the M/T Pregreso.
      On March 16, 2002, the Supervisory Immigration Inspector met the M/T
Progreso when it arrived in Norfolk. She boarded the ship and met with the
captain, who produced the crew list, I-95 landing passes, and passports for all crew
members. The inspector reviewed the seaman’s books for all the crew members to
determine whether they were all bona fide seamen. In addition, the inspector
questioned the captain about the crew. According to the inspector, the captain
stated that they were longtime seamen and they were not a flight risk. The
inspector said she also interviewed the crewmen and entered the four highlighted
crewmen’s names through Portable Alien Lookout System (PALS), with negative
results.5
      Based on the information from the captain, the negative database queries, and
the ship’s previous port, the Supervisory Immigration Inspector offered the captain
a crew list visa waiver if the shipping agent was prepared to pay the $195 fee. The
shipping agent paid the fee, and the crew list visa waiver was granted. As a result,
the 27 crew members were allowed to leave the ship. The Supervisory
Immigration Inspector had not been informed of any change in policy requiring
District Office approval for granting waivers, and she handled this case consistent
with the policy in effect prior to the issuance of the November 14 memorandum.
      Two days later, on March 18, 2002, at 1:00 a.m., the M/T Progreso departed
Norfolk. At 9:00 a.m. on March 18, the shipping agent informed the Supervisory
Immigration Inspector that four Pakistani national crewmen failed to return to the
vessel. At this time, the M/T Progreso was en route to Savannah, Georgia. The
Norfolk Sub-Office called the Savannah INS office and told an Immigration
Inspector there that four crewmen had failed to return to the M/T Progreso prior to
its departure from Norfolk. A Savannah Immigration Inspector was asked to board
the vessel and revoke the deserters’ landing permits. Norfolk also left a message


    5
       PALS is used during an inspection to recheck names or to process names that had
insufficient information prior to boarding the vessel. PALS includes the databases NAILS and
the Consular Lookout and Support System (CLASS).



                                              7
for a Savannah Immigration Inspector requesting that he secure the four deserters’
seaman books.
      The Norfolk Supervisory Immigration Inspector also informed William
Bittner, the INS Officer In Charge (OIC) of the Norfolk Sub-Office, that four
crewmen had deserted the M/T Pregreso. Bittner called the Coast Guard and the
Federal Bureau of Investigation (FBI) to inform them of the desertions. Bittner
said this was his normal practice in response to reports of ship jumping.
      The next day, on March 19, 2002, Bittner sent to Phyllis Howard, the INS
Deputy District Director for the Washington District, a Significant Event Report
about the four ship jumpers. Howard told the OIG that she received that report
either that day or the next morning at the latest. Howard stated that she recalled
being made aware of the Norfolk incident, but at the time she did not believe
further action was necessary.
      Howard stated that on March 20, 2002, Scott Blackman, the Regional
Director of the INS’s Eastern Region, called her to ask whether Bittner was in
compliance with the November 14 memorandum, which required that waivers be
granted only by specified INS District officials. Howard told the OIG that it had
not occurred to her that there was a problem because she knew she had informed
Norfolk after the November policy change that if waivers were necessary, the
requests would need to come through the Washington District Office. Howard told
the OIG that because she had not received any call requesting a waiver from the
Norfolk Sub-Office, she believed that the ship jumpers in this case had not
required visa waivers.
      According to Warren Lewis, the INS District Director for the Washington
District, the Washington District’s process for granting waivers since the new
policy went into effect in November 2001 was for the Immigration Inspector at the
port of entry to conduct an inspection and provide a synopsis of the information
gathered to Howard. The inspector would give a recommendation for granting the
waiver and request concurrence from Howard. Lewis said he would take calls for
waivers only if Howard was unavailable, but he said this did not happen often. He
did not receive any call requesting a waiver related to this incident.
      According to Bittner, on March 20, 2002, he and the rest of the Norfolk Sub-
Office learned for the first time that they had granted the visa waiver to the Norfolk
ship jumpers in violation of a new INS policy that had been issued in November
2001 requiring District Office approval for any waiver. Bittner said he became
aware of the new policy through an e-mail on March 20, 2002, sent by Lois


                                          8
Luczai, the INS Assistant Regional Director for Inspections, reminding recipients
to comply with the November policy. A return receipt was required. Bittner
responded that he received the e-mail and requested that a copy of the policy be
faxed to Norfolk, which was done.
      Bittner and an INS Supervisory Special Agent in the Norfolk Sub-Office
coordinated the investigation of the four ship jumpers with the FBI. In
coordination with the FBI, the INS contacted local hotels and transportation
companies to try to locate the deserters. In addition, the FBI printed flyers with
pictures of the four deserters and provided them to the local police.

     B.   INS Response
      The INS informed us that between September 2001 and March 2002 there
were a total of 253 ship jumpers throughout the country. In addition to deserters
who received visas or waivers to leave their ships but did not return, this number
includes those who left their ships without permission and failed to return to their
vessel. Most of the INS employees we interviewed stated that non-criminal or
non-terrorist ship jumpers are considered a low priority matter.
      Moreover, ship jumping is generally not an issue that would be raised to INS
Headquarters or even the regional office level. It is usually addressed locally.
However, the INS focused significant attention on the Norfolk ship jumping
incident, partly because of the nationality of the ship jumpers and partly because of
other incidents at the time for which the INS was receiving significant criticism.
      INS Headquarters management, including Deputy INS Commissioner Peter
Becraft, Chief of Staff Victor Cerda, and Assistant Commissioner for Inspections
Michael Cronin told us that they first became aware of the incident through
Associate Deputy Attorney General Stuart Levey. Levey had learned of the
desertions from the Coast Guard during a briefing on the day following the
desertions, March 19, 2002.
      INS Headquarters’ concern was further aroused by the nationality of the ship
jumpers, Pakistani. In addition, the INS was receiving significant criticism for the
disclosure that it had sent notification to a Florida flight school that two of the
September 11 terrorists’ change-of-status applications had been approved
previously. The notifications were sent six months after the terrorist attacks. On
March 19, 2002, the House Subcommittee on Immigration and Claims, Committee
on the Judiciary, held hearings on that incident.



                                          9
       On March 20, 2002, Cronin sought information about the Norfolk ship
jumping incident from Eastern Regional Director Blackman. Blackman then called
Norfolk OIC Bittner and asked whether Norfolk had acted in accordance with the
November 14 memorandum when it granted the visa waiver for the deserters.
Bittner stated to Blackman that he was unaware of the memorandum. Blackman
later called Bittner back, with Deputy District Director Howard on the phone, and
re-asked the question. According to Bittner, he again stated that he had no
knowledge of the memorandum, but Howard stated that she and Bittner had
discussed it. Bittner acknowledged to them having called Howard previously to
ask about a memorandum, but stated that he had “never received any guidance or
documentation on the policy.”
      Blackman and other personnel at INS Headquarters told the OIG that their
concern with respect to the Norfolk incident grew upon learning that the new
policy mandated by the November 14 memorandum had not been followed in
Norfolk. They also learned there had been an error in checking databases. The
INS discovered that one of the deserters appeared to be in a lookout system, but
there had been no hit in the database due to a missed keystroke in entering the
checked names.6
     After speaking with Lewis, Howard, and Bittner, Blackman passed the
information he obtained about the incident to INS Headquarters, along with a
chronology he created. In addition, Bittner wrote an e-mail to Cronin on
March 20, 2002, responding to the question whether Norfolk had followed the
November 14 memorandum. The e-mail stated:
        No it [the November 14 memorandum] was not followed. I
        remember discussing this with the DDD [Deputy District Director
        Howard] and the referenced policy was to be forwarded for my
        review. However, the actual policy memorandum and instructions

    6
       INS Executive Associate Commissioner Johnny Williams told the OIG that a database hit
on one of the deserters indicated that the deserter had attempted to enter the country in Chicago
to join a ship. However, the ship he was supposed to join was not in Chicago. Williams stated
that this is not uncommon, explaining that crewmen are sometimes duped into paying an agent
money to join a crew, going to the location where they are told to go, only to discover they have
been misled. The database further showed that the deserter agreed to withdraw his application
for admission. Williams further stated that the deserters’ removal at that time was not expedited,
meaning that his deportation was not seen as requiring more consideration than a routine removal
action.



                                               10
        were never received at our office. I spoke to the DDD tonight. The
        DDD will fax the memorandum to me, and she will be contacted on
        every item that fits the waiver process.
In this e-mail Bittner did not explain to Headquarters his argument, which he later
told us and which we discuss below, that although he had briefly discussed the
policy change with Howard, he was not aware of the substance of the policy.
      Lewis, who was on leave when the incident occurred, said that he maintained
contact with Blackman about the incident. Lewis stated that when Blackman
learned the seriousness of the situation, Blackman suggested that Lewis cancel his
leave and return to the District Office, which Lewis did.
      On March 21, 2002, Blackman instructed Lewis to reassign Bittner to the
District Office indefinitely. Lewis informed Blackman that an indefinite detail was
impermissible, and they settled on a 60-day detail.
      Lewis phoned Bittner and told him that he was being reassigned to the
District Office for 60 days. Lewis also informed Bittner that he did not make the
decision, and he did not believe that Blackman had made the decision either.
Blackman confirmed to the OIG that he had not made the decision to detail Bittner,
but that Executive Associate Commissioner Johnny Williams made that decision.
      Williams confirmed that he made the decision to reassign Bittner. When the
incident occurred, Williams just had been appointed to the position of Executive
Associate Commissioner for Field Operations, and he was in California preparing
to relocate to Washington. Williams stated that he conferred with Blackman, INS
Chief of Staff Cerda, and Deputy Commissioner Becraft in reaching his decision to
detail Bittner. According to Williams, by detailing Bittner he solved his immediate
concern, which was to ensure that they had someone in Norfolk who knew the
current policy for granting visa waivers and would follow that policy.7
      Based on the information he received from Blackman, Williams believed that
Bittner had known about the policy change, but because Bittner had not received a
hard copy of that policy Bittner chose not to follow the new policy. Williams told
the OIG that in reaching this conclusion he relied on Bittner’s e-mail quoted above.


    7
      Bittner’s detail has since been extended, and we were told that the detail would not be
terminated until the OIG completed its investigation and the INS made a decision regarding the
appropriate action to take.



                                              11
      When Lewis told Bittner he was being reassigned, Bittner drafted travel
authorization papers that he forwarded to the District Office. Those papers were
signed and sent back to Norfolk. That is the only paperwork Bittner has seen
regarding his reassignment.

    C. Outcome of Ship Jumping Case
      The ship jumping case received significant public attention. In a press
release issued on March 22, the INS reported the disappearance of the four
crewmen. Justice Department officials expressed frustration with the incident, and
Attorney General Ashcroft called it “maddening.” He stated that the Department
had launched a substantial investigation to find the ship jumpers.
     As a result of this incident, Commissioner Ziglar issued a memorandum to
INS employees announcing a “zero tolerance” policy. The memorandum stated:
     Effective immediately, I am implementing a zero tolerance policy
     with regard to INS employees who fail to abide by Headquarters-
     issued policy and field instructions. I would like to make it clear
     that disregarding field guidance or other INS policy will not be
     tolerated. The days of looking the other way are over.
      Congress also inquired about the incident. On March 22, the chair of the
House Judiciary Committee, James Sensenbrenner, wrote a letter to the INS asking
for full details of the Norfolk desertions. In the letter, Congressman Sensenbrenner
asked the INS to respond to questions about the inspection and waiver process
generally and specifically as implemented in this case, as well as to provide details
about the ship jumpers, and the efforts being made to capture them.
      On March 30, 2002, one of the ship jumpers was arrested in San Antonio,
Texas. Another ship jumper turned himself in at the INS District Office in
Chicago, on April 9, 2002. The remaining two ship jumpers still have not been
located.

IV. OIG’s Analysis of the Norfolk Ship Jumping Incident
      In this section of the report we discuss our findings regarding the Norfolk
office’s failure to apply the policy change imposed in the November 14
memorandum. We first discuss the evidence as to whether the Norfolk office or
Bittner received the November 14 memorandum. We also discuss the INS’s
decision to detail Bittner because of this incident.



                                         12
     A. Norfolk’s Knowledge of the Policy Change
      As noted above, the memorandum that described the new policy regarding
visa waivers had been sent on November 14, 2001, from Michael Cronin, the
Acting Executive Associate Commissioner for Office of Programs, to Michael
Pearson, the Executive Associate Commissioner for the Office of Field Operations.
Pearson issued the new policy on November 28, 2001, to Regional Directors,
Service Center Directors, and the Officer Development and Training Facility in
Glynco, Georgia, along with a cover memorandum that provided a basic outline of
the policy change.
      The Eastern Region Director, Blackman, received the November 14
memorandum along with the cover memorandum by fax on November 28, 2001.
He said the Eastern Regional Office forwarded a copy of the fax to all the District
Offices in its region, also by fax. In addition to faxing the memorandum to the
District Offices, the Eastern Regional Office sent an e-mail to all District Directors
and Port Directors alerting them that the policy memorandum and its attachments
would be arriving in their offices later that day. The e-mail was not, however, sent
to Officers in Charge of sub-offices, and Bittner did not receive the e-mail.
      We determined that the INS’s Washington District Office received the fax
with the November 14 memorandum and November 28 cover memorandum from
the Eastern Region on November 30, 2001. The District Office’s Administrative
Assistant explained that when memoranda come into the Washington District
Office, they are routed to Deputy District Director Howard for her review and for
her to direct further distribution. Howard completes a distribution list stamped to
the front of the memorandum to indicate who should be sent a copy. The
Administrative Assistant then sends copies to the programs or offices checked by
Howard, either by fax or by placing a copy in their mail slot. The Norfolk Sub-
Office’s mail is picked up by the mail room and sent by regular mail to Norfolk.
      The Administrative Assistant maintains a copy of all items she sends by fax.
In reviewing her file, however, she did not find a copy of the November 14 or the
November 28 cover memorandum, which indicates that it was not faxed to the
Norfolk office. District Director Lewis provided the OIG with the District Office’s
copy of the memorandum containing the distribution stamp. The Administrative
Assistant told the OIG that based on the distribution stamp, which indicated that
the Norfolk Sub-Office should get a copy, she believed that the memorandum
would have been mailed to Norfolk. The District does not, however, keep records
with respect to mail sent to Norfolk and could not verify that it was mailed to the
Norfolk office.

                                          13
       A Program Assistant in the Norfolk Sub-Office is responsible for filing and
distributing most mail and faxes received in the Norfolk Sub-Office. In addition,
she files received memoranda and policies in subject folders. The Norfolk Sub-
Office does not have a specific procedure for logging in mail or faxes. The
Washington District Administrative Assistant told the OIG that the Norfolk
Program Assistant is very good at her job, and if she had received the
November 14 memorandum, she would have retained it. The Norfolk Assistant
OIC was confident that if the memorandum had come to Norfolk, the Program
Assistant would have forwarded it to him and Bittner, as well as filing it
appropriately. The Program Assistant denied that the November 14 memo ever
came to Norfolk, stating that if it had she would have known about it.
      Howard told the OIG that while it is possible that Norfolk did not receive a
copy of the November 14 memorandum, she believed that Bittner and the Norfolk
Assistant OIC were aware of the November 14 memorandum, and thus the policy
change. Howard asserted that she spoke about the new policy in at least two staff
meetings. These staff meetings are held weekly, and Bittner and the Norfolk
Assistant OIC participate on speakerphone. Howard asserted that at the staff
meeting held during the week of December 4, 2001, she read in full Pearson’s one-
paragraph cover memorandum that transmitted the new policy. In addition,
Howard stated that during a staff meeting she believed Lewis commented on the
policy change and asked if everyone understood the memorandum.
     The Administrative Assistant takes the official notes for the staff meetings,
which she provided to the OIG for the December 2001 through January 2002
meetings. Her notes indicate that Bittner attended all of the staff meetings in
December and January, but the notes do not reflect any discussion of the
November 14 memorandum.
       According to the Administrative Assistant, she does not take down every
word that is spoken at each meeting. She said that, initially, she tried to get down
everything that was said by everyone. Shortly after she started, however, District
Director Lewis told her that he only cared that she get down what he says and
responses to questions he asks. Beyond that, Lewis said she only needed to get
down the big picture. She was not required to create a narrative, but rather only
bullets of the highlights from the meeting. She stated that even if Howard had read
the November 28 cover memorandum in the meeting, she might not have included
it in the meeting notes because Lewis was not the speaker and he did not tell her to
include it.



                                         14
      There were several other individuals in attendance at one or both of the staff
meetings in which Howard claims to have read the November 28 cover
memorandum and discussed the November 14 memorandum. Among them were
the INS Port Director for Dulles Airport, the Assistant District Director for
Investigations, the District’s Public Affairs Officer, the Assistant District Director
for Deportation and Removal, the Acting Assistant District Director for
Examinations, and the Assistant Port Director for Dulles Airport. At these staff
meetings everyone is physically present except for employees of the Norfolk Sub-
Office, who participate by phone.
      No one we spoke to remembered that Howard read the November 28 cover
memorandum to the November 14 memorandum at a staff meeting. Further, no
one had any specific recollection that she raised the November 14 memorandum or
the November 28 cover memorandum at a staff meeting. Moreover, the notes
taken by several participants during the December and January meetings and the
official minutes are very similar. None of the notes indicate any conversation
about the November 14 memorandum.
      Like Bittner, two other attendees did not recall any discussion of the
November 14 memorandum during the course of any staff meeting in December or
thereafter. But several other attendees did recall that Howard and members of the
Dulles Airport staff briefly mentioned the November 14 memorandum in the
context of how many phone calls Howard would be receiving. Although some
thought the discussion occurred during a meeting, others were unsure, and still
others thought it was either after the meeting or during a side conversation rather
than a part of the meeting. District Director Lewis stated that while he believes the
Norfolk officers should have heard the conversation about the memorandum, he
acknowledged that no one checked with Norfolk during the call to verify that they
did, or to ensure that they were aware of what needed to be done if a waiver or
parole was requested.
      Howard also told the OIG that before the December 20, 2001, staff meeting,
Bittner called her about the November 14 memorandum. She stated that she
recalled that Bittner and the Norfolk Assistant OIC joked with her that she would
be receiving calls at all hours of the night because of the change in policy. She
stated that she instructed Bittner to call with any questions after he received the
memorandum.
      Bittner acknowledged to the OIG that he called Howard to inquire about a
policy change. He said that he made the call on January 7, 2002. Bittner stated he
knew the date because he initiated the call to Howard after speaking with Gary

                                          15
Hale, the OIC of the INS’s Albany New York Sub-Office, about their respective
holiday vacations. Bittner stated that during his conversation with Hale, Hale
mentioned a policy change regarding parole and waivers. According to Bittner,
however, the focus of their conversation was personal, and the policy change was
mentioned only in passing.
     Hale told the OIG that the conversation with Bittner occurred in early
January. Hale stated that he asked Bittner about the effect the policy change
“requiring the District’s approval on all waivers” was having on Norfolk, which
had much more traffic than Albany. According to Hale, he also told Bittner “what
[Hale] had to do concerning this new policy requiring the District approval on all
waivers.”
      Bittner said that following this conversation with Hale he had contacted
Howard about the policy change that Hale had raised in order to find out the
specifics of the change. Bittner said that the Norfolk Assistant OIC also was
present with him when he called Howard. The Assistant OIC stated that during the
conversation among Howard, Bittner and himself, the specifics of the policy were
not discussed, but Bittner asked about a new policy changing the guidance for
issuing visa waivers, paroles, and deferred inspections. The Assistant OIC further
stated that Howard said she would fax the policy to Norfolk.8
        The Washington District Office’s Administrative Assistant stated she
believes that Howard told her to fax to Bittner a copy of a memorandum entitled,
Guidelines for Inspection of Aliens Requiring Advance Parole, dated
December 29, 2000, not the November 14, 2001, memorandum, in response to the
conversation between Bittner and Howard. The Administrative Assistant based her
belief on the fact that the fax cover sheet with the December 29 document
indicates it is from Howard, but the smiley face on the bottom shows that it was
actually faxed by the Administrative Assistant. The Administrative Assistant
faxed the December 29 memorandum, and the Norfolk date stamp on the
memorandum is January 7.
      The December 29 memorandum that was faxed addressed guidance for
processing pending “Applications[s] to Register Permanent Residence or Adjust
Status, Form I-485, wishing to depart and re-enter the United States without


    8
     Howard remembered this conversation. She believed that it had occurred earlier than
January 2002, but she said that she could be wrong about the date.



                                             16
abandoning their application.” The purpose of the guidance was to ensure
consistency in processing such matters, and it outlined parole procedures in such
situations. The December 29 memorandum did not address visa waivers and did
not have the far-reaching impact of the November 14 memorandum.
      Howard stated that she was not familiar with the December 29 memorandum
that was faxed to Bittner, and was uncertain if this had been sent to Bittner because
there was no confirmation receipt. Howard said that she does not know where the
Administrative Assistant would have gotten the memorandum if not from her, or
why she would have sent it to Norfolk absent Howard’s instructions to do so.
      Bittner said that when he received the December 29 memorandum, he gave it
to the Norfolk Assistant OIC, who assured Bittner that they already had this
memorandum and were in compliance with it. According to Bittner and the
Norfolk Assistant OIC, they therefore concluded that there was no policy that they
had not received. Thus, they did not seek additional information about the new
waiver policy.

    B.   Responsibility for Norfolk’s Failure to Receive or Comply with the
         November 14 Policy Change
      First, we concluded that the Norfolk Supervisory Immigration Inspector who
granted the crew list waivers in this case was not responsible for the failure to
comply with the November 14 memorandum. She, and other Norfolk Immigration
Inspectors, had not been informed of the policy change, and she acted in
accordance with the policy that she believed was in effect.
     As we describe below, we believe that both Bittner and Howard bear
responsibility for Norfolk’s failure to receive and apply the new policy.

         1.   Bittner
      Based on our interviews of INS personnel and the documentary evidence, we
concluded that the Norfolk Sub-Office did not receive the November 14 policy
change. Further, the evidence indicated that Howard did not discuss the
November 14 memorandum during any staff meeting. This conclusion is
supported by the absence of any mention of a discussion on this topic in anyone’s
meeting notes. Meeting notes taken by different individuals included small details
regarding parking and heating, but nothing about a discussion of the policy change.
Given the inclusion of detailed information in their notes, we do not believe that an



                                         17
important substantive issue such as the policy change made in the November 14
memorandum would have been omitted from all the notes if it had been discussed.
      We concluded, however, that Howard may have had a brief side conversation
with some staff about the new waiver process. But the substance of that
conversation was not conveyed to the Norfolk officers.
      Nevertheless, although the policy change was not received by the Norfolk
Sub-Office, we believe that Bittner bears some responsibility for failing to obtain
the November 14 memorandum containing the policy change once he became
aware of it. Through a conversation with Gary Hale, the Officer in Charge of the
INS’s Albany New York office, Bittner had reason to be aware that a new policy
affected Norfolk operations. Bittner stated that the conversation about the policy
with Hale was very vague. However, Hale questioned Bittner about how Norfolk
was implementing the policy “requiring the District’s approval on all waivers.”
We believe that this conversation should have put Bittner on notice of an important
policy change affecting his operations.
      The conversation caused Bittner to call Howard to ask for the new policy.
The e-mail that Bittner later wrote in March 2002 about the incident indicated that
he had discussed the policy with Howard but never received it. Bittner told us that
his e-mail meant that he had discussed the policy with Howard by asking her to
send a copy, but they had not discussed the substance of the policy. Bittner also
stated that the November 14 memorandum never came to Norfolk, and he never
had a follow-up conversation about the memorandum with Howard.
      We do not believe that Bittner received the November 14 policy and chose
not to follow it, as were told some in the INS believed when the incident first
occurred. Howard and Lewis both stated that they think highly of Bittner, and
Howard stated that there was nothing in Bittner’s work history that would indicate
a willingness to knowingly disregard an agency policy. Other Headquarters and
regional management also noted that Bittner had a good reputation and believe that
he ran a good operation in Norfolk.
     Yet, while we believe that Bittner did not receive the policy and may not
have known the specifics of the new policy, he knew enough that he should have
sought additional clarification when he received the fax of the wrong
memorandum, the December 2000 memorandum, that did not deal with visa
waivers. Hale had specifically told Bittner that the new policy required District
Office approval on all waivers, and Hale had explained the process Albany was
employing with respect to the November 14 memorandum. The December 2000


                                        18
memorandum did not address this issue at all and was more than a year old. But
Bittner never followed up with Howard or the Washington District office about
this issue nor did he determine what Hale meant when he referenced the new
policy.

           2.   Howard
      We concluded that the primary fault for Norfolk’s violation of the November
14 memorandum policy rests with the District Office – specifically with Deputy
District Howard.
      We do not find District Director Lewis to be at fault in this matter. The
process for granting approvals of waivers, paroles, and deferred inspections, was
for the requesting office to contact Howard. Lewis only took calls when Howard
was unavailable, which was infrequent. Lewis also had no reason to know that
Norfolk had not made any requests between December 2001 and March 2002. Nor
did Howard inform Lewis of her conversation with Bittner in December regarding
his failure to receive the policy change.
       Rather, we believe Howard was responsible for ensuring that Bittner and the
Norfolk Sub-Office understood and complied with the new policy on visa waivers.
Although Howard claimed that she discussed the policy change in two staff
meetings, we concluded that Howard did not read the memorandum or any part of
it at a staff meeting. While there may have been a brief discussion of the
memorandum between Howard and some staff members, it was not part of the
main meeting. Even if it had been mentioned in connection with the meeting, it
was not sufficiently highlighted to inform Norfolk of the new policy requirements.9
       We also concluded that Howard should have known that Norfolk had not
requested any waivers since the November policy change. The Snapshot Report
that is provided to the Washington District Office on a monthly basis indicated that
approximately 800 aliens a month are inspected by Norfolk. Howard
acknowledged that she saw these reports. Howard asserted that because there
were no requests for waivers from the Norfolk Sub-office, she assumed none were
needed. But she never checked with the Norfolk Sub-Office about her assumption

    9
      In a response to a draft of this report, Howard reiterated her arguments that she had
discussed the November 14 memorandum at a staff meeting and during that meeting Bittner was
informed of the change. Based on the evidence and the reasons discussed above, we did not find
her arguments persuasive.



                                             19
or whether it was following the change in policy for granting waivers. Given the
volume of inspections performed by Norfolk, we believe that it was not reasonable
for her to believe that not a single waiver, deferral, or parole was needed or granted
between December 2001 and March 2002. Five district officials responsible for
granting waivers in other INS districts who we interviewed stated that they would
have been surprised if they had not received any requests for visa waivers from
December through March from a moderately busy port, which Norfolk is.
      In addition, after Bittner asked Howard about the policy change, Howard
sought to have the policy sent to Bittner. However, the wrong memorandum was
sent. Howard never followed up with Bittner to determine if Norfolk had received
the new policy and was following it, even after Norfolk still made no requests for
any waivers. Howard also never made any effort to inquire why there were no
waivers from Norfolk. We believe that her inattention to this issue was at least as
responsible as Bittner’s actions for Norfolk’s not receiving or following the new
policy guidance.

     C. Movement of Bittner
      Shortly after the Norfolk ship jumping incident, Bittner was detailed from the
Norfolk Sub-Office to the Washington District Office. The decision to move
Bittner was made at INS Headquarters by Executive Associate Commissioner
Williams. He and other headquarters personnel gathered facts from Bittner’s third-
level supervisor, Blackman. However, neither Blackman nor Bittner’s first- and
second-level supervisors, Lewis and Howard, were consulted regarding the
decision to take action against Bittner. The INS also decided to move Bittner
within two days of learning about the incident. Given this short time frame, there
was very little time to gather and evaluate the information about Bittner’s
responsibility for the incident.
      The INS’s action in detailing Bittner was different from the way a similar
incident was handled in Camden, New Jersey. On March 21, an INS Immigration
Inspector in Camden granted a visa waiver for the Turkish captain of a ship
without seeking authorization from anyone in the Newark District Office, as
required by the November 14 memorandum. The District Director in Newark
reported the incident to the Eastern Regional Office on March 25, 2002.
      The Eastern Region of the INS requested an inquiry of the Camden incident,
to be conducted by a Patrol Agent in Charge from another district office. That
inquiry found that the November 14 policy change was not being followed at the
Camden post, which operated out of the INS’s Cherry Hill, New Jersey, Sub-

                                         20
Office. The inquiry also developed evidence indicating that the policy change had
been discussed in a staff meeting. The OIC of the Cherry Hill Sub-Office claimed
that she was unaware of the change in policy, and she had not informed her staff of
the change. The conclusion of the INS inquiry was that while the Cherry Hill OIC
had made an error, it was neither malicious nor intentional and was the result of
“indistinct communication from a variety of levels.” Further, the INS did not
recommend that any disciplinary action be taken as a result of Camden’s failure to
comply with the November 14 memorandum. By contrast, in the Norfolk incident,
Bittner was immediately moved for his failure to follow the November 14 policy
change before any inquiry was conducted.

V. The INS’s Dissemination of New Policies
      The Norfolk ship jumping incident shines light on a long-standing problem in
the INS – that INS policies and changes in policy are not distributed to INS offices
and employees in the field in a uniform or effective way. In this section of the
report, we first discuss how the November 14 memorandum was disseminated
throughout the INS and then discuss what the INS is doing to rectify some of the
problems with its current distribution system. At the end of the report, we offer
recommendations for improvements in the INS’s process for making its employees
aware of the policies they should be following.

    A. How INS Distributed the November 14 Memorandum
      To investigate how the November 14 memorandum was distributed
throughout the INS and whether the Norfolk Sub-Office alone did not receive the
memorandum, we selected three District Offices – Miami, Houston, and San Diego
(one from each INS region) and determined how they received the November 14
memorandum. In addition, we analyzed how the policy was distributed by the
Washington District Office. We also investigated how the policy was distributed
by the Newark and the Boston District Offices, because we learned that sub-offices
within these districts also were not in compliance with the new policy in the
November 14 memorandum.
      We found that there is no consistency with respect to how policy memoranda
get from the INS office of origination to those who are assigned to implement the
policies. Policy memoranda are most commonly distributed through the Region to
the Districts. However, INS program offices have different methods for sending
information to the field. Further, we found that there was no consistent method for
tracking the distribution of memoranda or ensuring that they are enforced.


                                        21
         1.   Eastern Region
      As discussed above, the Eastern Region faxed the November 14
memorandum to District Directors and sent an e-mail to District Directors and Port
Directors alerting them to the coming memorandum. This e-mail, however, did not
go to OICs in the District. Before the Norfolk incident, the Eastern Region did not
have an established process for tracking the distribution or compliance with
policies, and once the memorandum left the Regional Office neither receipt nor
implementation was confirmed.
      We found that all of the District Offices in the Eastern Region that we spoke
to – Boston, Newark, Miami, and Washington – had received the November 14
memorandum. Those offices then tried to forward the memoranda to the officials
in their districts who needed the information. In the Miami District, we found that
the Jacksonville Sub-Office and the Miami Seaport did receive the memorandum.
The Miami Seaport took additional steps to ensure compliance with the new policy
by issuing standard operating procedures for compliance with the November 14
memorandum.
      Some districts within the Eastern Region, however, were not successful at
ensuring receipt by sub-offices. We have already discussed in detail the
Washington District’s unsuccessful process for dissemination of the November 14
memorandum. Newark and Boston were also unsuccessful in conveying the new
policy to all offices affected by the change.
      In Newark, the District Office faxed the November 14 memorandum to the
Newark Airport which at the time was responsible for all inspections in the
Newark District except for the port at Camden. It does not appear, however, that
the November 14 memorandum ever arrived in the Camden port. As noted above,
on March 21, a Camden immigration officer granted a visa waiver without
notifying the Newark office. An INS inquiry found that the November 14 policy
change was not being followed in Camden and had not been received there.
Similarly, although the Boston District Office purportedly faxed the document to
its sub-offices, we found that the Providence Sub-Office never received the
November 14 policy change.

         2.   Western Region
      The Western Regional Office faxed the November 14 memorandum to
District Offices. Our review in the San Diego District Office found that it had



                                        22
received the memorandum and that it implemented many measures to ensure that
the new policy was received and followed by all Immigration Inspectors.
      The San Diego District Office received the memorandum by fax from the
Western Regional Office on December 4, 2001. According to the San Diego
District Office, memoranda such as the November 14 memorandum are stamped
for distribution and forwarded to the Port Directors and the appropriate program
offices, which are then responsible for implementation. In addition to faxing the
November 14 memorandum to all ports of entry, the Assistant District Director for
Inspections for the San Diego District visited the San Ysidro Port regarding the
implementation of the policy. This port averaged between 3,000 and 4,000 waiver
requests a month, and therefore implementation of the new policy was a significant
issue for the San Ysidro Port. All Supervisory Immigration Inspectors in the San
Ysidro Port were given a copy of the November 14 memorandum in their mailbox,
via e-mail, and at meetings. Further, the San Ysidro Port sent instructions for
complying with the policy change by e-mail to its staff. Moreover, the San Ysidro
Port established a separate unit for ensuring that the new policy was followed.

           3.   Central Region
       Unlike the Western and Eastern Regions, the Central Region took specific
steps to ensure that all offices in the region received and complied with the
November 14 memorandum. The Central Region sent the policy to District
Directors with a cover memorandum explaining the policy and requiring each
district to send the regional office a report within the week explaining its procedure
for implementing the policy.
       Within the Central Region, we went to the Houston District Office and found
that it also took steps to ensure that the policy was followed by Immigration
Inspectors. Following receipt of the November 14 memorandum, Houston’s
Acting Assistant Port Director had notices posted regarding the policy change in
the seaports under Houston’s jurisdiction, including Galveston, Port Arthur, and
Houston. In addition, the Houston District sent a memorandum to all Assistant
Port Directors and Supervisory Immigration Inspectors informing them of the new
policy, with instructions regarding implementation.10


    10
      As of April 2002, the Houston District discontinued granting any waivers, according to
the Houston Assistant District Director for Inspections.



                                              23
    B.   Local Changes in Dissemination Processes
      Since the Norfolk incident, some offices have attempted to make changes to
ensure that INS employees who must implement policies receive and comply with
them. For example, before the Norfolk incident, the Eastern Region did not have a
process for tracking the distribution of, or compliance with, new policies. Since
March 20, 2002, however, the Eastern Regional office and several district offices,
including the Boston District and the Washington District, have begun tracking
memoranda that they send to ensure their receipt. Further, the Eastern Region
Planning Office now retains copies of all distributed memoranda, and requires that
each office that is sent a copy of a memorandum return a cover sheet from the
received memorandum acknowledging receipt.
      In addition, some offices maintain a list of all received and issued
memoranda. The lists include items such as the name of the affected programs, the
date the memorandum was sent, and a brief description of the memorandum.
      In addition to keeping a list of memoranda, the Washington District now
scans memoranda into the computer and forwards them to the appropriate offices
and individuals by e-mail rather than by fax or mail as was previously the practice.
By using this method, the Washington District is able to track who is sent
memoranda through the e-mail archive folder and who receives them through
return receipt.
      Another means of ensuring receipt and compliance has been implemented in
the Miami Seaport. That port-of-entry now issues each Immigration Inspector a
binder containing directives. The Inspectors are required to sign new policy
directives indicating they have read and understand them.

    C.     Headquarters Practices
      All of the efforts to ensure receipt and compliance with INS policies
described above were implemented by local or district offices, but were not
national in scope. The INS has no national policy addressing the lack of
uniformity in distribution and implementation of policies and guidance, despite
notice of the problem.
       In February 2000, the INS Office of Internal Audit (OIA) drafted a report on
policy dissemination. The OIA report stated that the INS did not “have a sound
infrastructure through which offices can maintain guidance distributed to the
field.” Further, the report found that there was no formal means of conveying
information beyond memoranda, and no formal requirements for incorporating


                                         24
memoranda into manuals or everyday operations. The report made three
recommendations:
   1) The Executive Associate Commissioner, Policy and Planning, in
      coordination with the Executive Associate Commissioner,
      Management, should require that program offices incorporate
      policies and related procedures into Field and Administrative
      Manuals;
   2) The Executive Associate Commissioner, Policy and Planning,
      should establish a process for issuing and controlling interim
      guidance;
   3) The Executive Associate Commissioner, Policy and Planning, in
      coordination with the Executive Associate Commissioner, Management,
      should establish guidance for policy and procedure distribution and follow-
      up.
      When we asked OIA during our investigation whether any action had been
taken on the recommendations in this report, an OIA program manager said that
OIA would look into it. On May 23, 2002, OIA asked the INS Executive
Associate Commissioner for Policy and Planning for the status of the actions taken
in response to three recommendations made in the OIA report. A reply to OIA’s
request was asked for by June 14, 2002. No reply, however, was made.
      After the deadline for a response passed, we again contacted OIA to find out
what the INS had done, or was planning to do, regarding the recommendations.
The OIA Assistant Director for Internal Audit responded that the report had been
drafted at the request of former INS Commissioner Doris Meissner. The Assistant
Director further told the OIG that the completed report was sent to Commissioner
Meissner for comment, but she did not respond before leaving her position.
Therefore, although the report had been sent to the relevant implementing
programs, it was never acted upon.
       We also spoke to an official in the INS’s Office of Policy and Planning to
inquire about its implementation of the three recommendations. He informed us
that the Office of Policy and Planning no longer had organizational responsibility
for the matters covered in the OIA’s February 2000 report, and that these matters
now were more appropriately addressed by the Office of Field Operations, which
has responsibility for policy directives and guidance, and to the Office of
Management, which is responsible for administrative directives and guidance.
However, no one currently involved with addressing policy dissemination in the

                                        25
Office of Field Operations who was interviewed for this report was aware of the
OIA report prior to meeting with the OIG.
       Executive Associate Commissioner Williams stated, however, that the INS
had created a working group, the Field Manual Project, to address the issues raised
in the OIA report. Williams said that, shortly after assuming his current position in
March 2002, he created the Field Manual Project working group to improve and
facilitate the use of the field manuals, as well as to improve the dissemination of
policies within the INS. Williams said this group intended to consider the value of
using products such as Docushare to enable users to scan documents into a
computer for shared use. In addition, the working group was seeking ways to
ensure that the field manuals are kept current, and to eliminate conflicting guidance
within the field manuals.
      We determined that the INS five field manuals can now be found on the
INS’s document system called INSERTS (Immigration and Naturalization Service
Easy Research & Transmittal System), which is in both CD form and on the INS’s
intranet. We were told that updates to the CDs are made approximately every five
months, while changes to the INS Intranet are made every two to four weeks.
       Assistant Commissioner for Inspections Cronin, who is a member of the
Field Manual Working Group, explained that part of the project includes making
the field manuals the sole source of INS policies. He acknowledged, however, that
many of the field manuals are incomplete. We also found that the field manuals
that were purported to be complete were not. For example, Cronin told us that he
believed the Inspections field manual was complete. Yet upon our review, we
found that the changes mandated by the November 14 memorandum were still not
reflected in the May 2002 version of INSERTS.
      We asked Mike Shaul, an Examinations Officer in the Office of Programs
and the Acting Director of the Field Manual Project, about the incomplete field
manuals. Shaul stated that the process for updating the manuals is outlined in the
INS Administrative Manual Procedures. That section explains how programs are
to revise the field manuals. It states that when a program is contemplating issuing
a change in policy or guidance it should request a transmittal number from the
Field Manual Project Unit. When the policy or guidance is issued, it should be
sent to the Policy Directives and Instructions Branch, and the Field Manual Project
Office. These offices are supposed to ensure that the submission is consistent with
the format necessary for the update to be made in the Field Manual and, upon
satisfaction, sends it to a contractor for inclusion in the Field Manual.


                                         26
      Shaul provided the OIG with a copy of the Inspector’s Field Manual Update
Log. This document provides the number assigned to a memorandum, the topic,
the individual assigned the task, the date the number was assigned to the
memorandum, and the date the document was sent to the INSERTS contractor.
When we reviewed the log on July 11, 2002, it showed that the policy in the
November 14 memorandum had not been completed yet, meaning it had not been
added to the Field Manual.
      Shaul told the OIG that he believed that policy distribution and the field
manuals should be interrelated. The Field Manual Project Unit would prefer INS
offices write memoranda that can serve as both the policy/guidance and the Field
Manual update. Shaul explained that it is easier to make policy changes using the
original Field Manual section affected by the change and draft the changes with the
Field Manual in mind. He said that the Field Manual Working Group is also
considering implementing a process by which policies and guidance are scanned
into the computer, thus providing immediate access to all issued material.
     The Field Manual Project has created a document outlining its proposals and
recommendations that the INS:
              Prepare overdue field manual updates
              Re-emphasize to officers and supervisors the need to prepare memos
              to the field in field manual format
              Incorporate standard operating procedures developed by
              Immigration Services Division and other offices into the field
              manuals
              Prepare all guidance memos in field manual format
              Arrange for immediate dissemination of memos when urgent
              (possibly via cables to field offices)
              Update INSERTS immediately
              Immediately notify field offices of INSERTS updates (possibly
              using e-mail broadcast message)
      We agree that these actions would greatly improve the INS’s system for
transmitting information. In addition, on August 13, 2002, the working group
proposed further recommendations to improve policy distribution within the Office
of Field Operations. These recommendations include a better and more complete
use of electronic means of distribution. Moreover, Williams issued a


                                        27
memorandum on August 19, 2002, directing that all memoranda directed to field
personnel must be drafted to incorporate Field Manual additions or changes. The
directive further stated that each such memoranda must be cleared through the
Director or Acting Director of the Field Manual Project to ensure that the
memoranda does not conflict with current policy and is in the proper format.
      However, given the current time lag for updating the Field Manual and
because a shared electronic process has not been implemented yet, it is still
necessary for the INS to send policy and guidance changes to the field. Until the
recommendations of the Field Manual Project can be fully implemented
throughout the INS, we believe that the INS should use electronic means for
disseminating and tracking receipt of memoranda, including e-mailing policy
changes rather than by faxing them, as was done in this case. We also believe that
the INS should make documents available on a shared electronic bulletin board for
all employees, rather than relying on mailing and faxing documents.11
       In addition, we believe it is important for the INS to routinely send policy
memoranda to OICs as well as to Port Directors and Program Managers. By
failing to include OICs in the initial distribution of policies, the INS misses a
critical link to the field, which caused the breakdown in the Norfolk case.12
      We also believe that the INS must ensure that all employees are trained to
access INSERTS as well as other electronic mediums used by INS. This also is
suggested in the August 13 recommendations proposed by the working group. One
District Director told us that INSERTS is not used regularly by INS employees,
and if a question arises about a policy his office likely would call the region.
Updating INSERTS and ensuring access is meaningful only if employees use it. If



    11
        In response to a draft of this report, the INS stated that it concurs with this
recommendation and is in the process of setting up a process by which electronic versions of
policy memorandum will be transmitted to field offices, with logs kept of receipt of policies by
the field office and actions taken in response.
    12
       The INS disagreed with this recommendation, stating that it intends to require all District
Directors to set up internal policy distribution standard operating procedures. We are concerned
that decentralizing the distribution of policy memoranda will lead to inconsistencies and similar
problems that occurred here, and that a more centralized process distributing policy memoranda
from INS Headquarters to the field, including OICs and Port Directors, would be more effective
and efficient.



                                                28
the INS relies upon INSERTS to notify its employees of policy changes, INS
employees should be trained on INSERTS and required to use it.
     Finally, we recommend that the INS also post important policies and policy
changes in prominent locations in INS offices, where employees have access to
them. Therefore, even if an electronic communication is missed, the employee will
have another opportunity to be informed of the critical policy changes.13

VI. Conclusions
      This report examined the March 2002 ship jumping incident in Norfolk and
the reasons for the Norfolk INS’s failure to follow the INS November 14
memorandum that required visa waivers to be approved by District officials. We
found that Norfolk did not receive the new policy. We attributed this failure
primarily to inaction by the Washington Deputy District Director and to a smaller
extent by the Norfolk Officer in Charge.
       We also concluded that the INS needs a more effective system for
distributing new policies. The INS has been on notice of problems with
inconsistent distribution of policies since at least February 2000, when the INS
OIA issued a report recommending changes in this area. Two years later, the INS
had not implemented these changes. It now has an ongoing project to try to ensure
that all policies and guidance are available to the field in complete Field Manuals,
but that project is ongoing still. We believe this is a critical initiative that should
receive priority attention. In addition, we recommend that the INS take additional
steps to ensure that policy memoranda arrive where they are intended and are
followed. In this regard, we believe the INS should make better use of e-mail,
electronic bulletin boards, and other electronic means to transmit new policies to
the INS employees who must enforce them.


                                                _________________________
                                                Glenn A. Fine
                                                Inspector General


    13
     The INS stated in response that it would review and take into consideration this
recommendation.



                                              29
EXHIBIT A
                                                         U.S. Department of Justice
                                                         Immigration and Naturalization Service

                                                         HQINS 70/10.10

Office of Executive Associate Commissioner               425 J Street NW
                                                         Washington. DC 20536



                                                                    NOV 2 8 2001




FROM:


SUBJECT:            Deferred Inspection. Parole and Waivers of Documentary Requirements

Attached is the policy memorandum establishing field guidance for authorizing the deferred
inspection, parole, or waiver of any documentary requirement at the ports-of-entry (POEs). Aliens
shall not be paroled for deferred inspection, otherwise paroled into the United States. or granted a
waiver of any documentary requirement without the express approval of the District Director,
Deputy District Director, Assistant District Director for Inspections. or Assistant District Director
for Examinations. In addition, all Forms 1-512, Authorization for Parole of an Alien into the United
States, issued overseas must be approved by the District Director or Deputy District Director. This
authority shall not be delegated. Please ensure that all districts and POEs are aware of and comply
with this policy.

Attachment
                                                      U.S. Department of Justice
                                                      Immigration and Naturalization Service



                                                              HQINS 70/10.10

Office of the Executive Associate Commissioner        425 I Street NW
                                                      Washington. DC 20536


                                                                     NOV 14 2001

MEMORANDUM FOR MICHAEL A. PEARSON
               EXECUTIVE ASSOCIATE COMMISSIONER
               OFFICE OF FIELD OPERATIONS

FROM:           Michael D. Cronin

                Office of Programs

SUBJECT:        Deferred Inspection. Parole and Waivers of Documentary Requirements

During the Nation's heightened security alert and until further notice, aliens shall not be paroled
for deferred inspection, otherwise paroled into the United States, or be granted a waiver of any
documentary requirement without the express approval of the District Director, Deputy District
Director, Assistant District Director for Inspections, or Assistant District Director for
Examinations.

District Directors, Deputy District Directors, Assistant District Directors for Inspections, and
Assistant District Directors for Examinations shall only parole for deferred inspections,
otherwise parole into the United States, or grant a waiver of any documentary requirement on a
case-by-case basis after all appropriate database checks have been completed. Such discretion
should be applied only in cases where inadmissibility is technical in nature (i.e., documentary or
paperwork deficiencies), or where the national interest, law enforcement interests, or compelling
humanitarian circumstances require the subject's entry into the United States, and where the alien
is likely to comply with the terms of the exercise of discretion.

This authority shall not be delegated. This guidance does not change the existing statutory and
regulatory standards for paroles and documentary waivers.

Further, all Authorizations for Parole of an Alien into the United States (Form 1-512) issued by
overseas Immigration and Naturalization Service (INS) offices must be approved by the District
Director or Deputy District Director. Authorizations for Parole of an Alien into the United States
(Forms 1-512 and I-5I2L) issued at stateside INS district offices or service centers
Memorandum for Michael A. Pearson                                                           Page 2
Subject: Deferred Inspection, Parole and Waivers of Documentary Requirements



need not have the express approval of the District Director, Deputy District Director, or Service
Center Director.

Officers at ports-of-entry (POEs) must obtain the approval of the District Director, Deputy
District Director, Assistant District Director for Inspections, or Assistant District Director for
Examinations when granting waivers of documentary requirements for nonimmigrants under
section 212(d)(4) of the Immigration and Nationality Act (INA) and for returning residents not in
possession of proper documents pursuant to section 211 (b) of the INA. Pursuant to the attached
October 3,2001, memorandum, "Interim Guidance: Status of FY 2002 Refugee Admissions,"
refugee applicants who arrive at a port-of-entry may be granted a 3D-day deferred inspection.
Officers must obtain the approval of the District Director, Deputy District Director, Assistant
District Director for Inspections, or Assistant District Director for Examinations prior to
deferring the inspection of refugee applicants.

While Officers need not obtain the approval of the District Director, Deputy District Director,
Assistant District Director for Inspections, or Assistant District Director for Examinations to
parole aliens in possession of a valid Form 1-512 or I-512L, such as adjustment of status
applicants or certain alien applicants under the Legal Immigration Family Equity (LIFE) Act,
such aliens are still subject to the INS inspection process. Attached is a copy of the October 26,
2001, memorandum addressing the issue of aliens presenting Form I-512L at the
POE.

This memo does not change the procedures for Border Crossing Card holders contained in the
September 28,2001 Memorandum entitled "Expiration of Non-Biometric Border Crossing Cards
(BCCs) and Implementation of the Machine-Readable Biometric BCC on October I, 2001." A
copy of this memorandum is also attached.

The point of contact in the Office of Inspections is Assistant Chief Inspector Cheryl
Becker (202) 305-4764.

Attachments (3)
                INS                                      U.S. Department of Justice
                c-PMs                            Immigration and Natura1ization Service



                                                                                   HQINS 70/12.2.1


Office of the Executive Associate Commissioner           425 I Street NW
                                                         Washington, DC 20536

                                                                  SEP 30 2002

MEMORANDUM FOR REGIONAL DIRECTORS
               DIRECTOR, INTERNATIONAL AFFAIRS

FROM:          John N. Williams [signed]
               Executive Associate Commissioner
               Office of Field Operations

SUBJECT:       Nonimmigrant Unforeseen Emergency Waivers Under Section 212(d)(4)(A) of the
               Immigrant and Nationality Act – IFM Update IN02-29


       This memorandum provides amendatory language to the Inspector's Field Manual (IFM)
and reminds immigration officers of the strict limitations placed upon unforeseen emergency
waiver requests under section 212(d)(4)(A) of the Immigration and Nationality Act (Act). This
memorandum supersedes the November 14, 2001, memorandum Deferred Inspection, Parole and
Waivers of Documentary Requirements to the extent that it conflicts with the granting of
212(d)(4)(A) waivers. Effective immediately, this policy authorizes port directors and officers-
in-charge (including an individual acting in either capacity) to adjudicate section 212(d)(4)(A)
waivers under limited circumstances. These changes will be included in the next release of
INSERTS. If you require any clarification regarding this memorandum, please contact Assistant
Chief Inspector Marty Newingham at (202) 616-7992.

1.      Section (d) of Chapter 17.5 of the IFM is revised to read in total as follows:

        "(d) Nonimmigrants.

           (1) Section 212(d)(3)(A). Nonimmigrants who are inadmissible to the United States,
        and who require a visa, must apply in advance for a waiver under section 212(d)(3)(A) of
        the Act. Joint concurrence by the Secretary of State and the Attorney General is required
        for approval. The alien usually applies for the waiver in conjunction with the application
        for a nonimmigrant visa. Once approved, the section of law under which the waiver was
        approved and any special limitations will be noted on the visa. If otherwise admissible,
        enter the waiver information and any restrictions on the reverse side of the I-94 in the
        appropriate blocks.
Memorandum for Regiona l Directors, et al.
Subject: Nonimmigrant Unforeseen Emergency Waiver Under Section 2I2(d)(4)(A) of the
Immigration and Nationality Act - IFM Update IN02-29.

         (2) Section 212(d)(3)(B). Inadmissible nonimmigrants who are already in possession
      of a nonimmigrant v1sa, or who are exempt the requirement for a visa, must apply for a
      waiver under section 212(d)(3)(B) to the district director having jurisdiction over the
      intended port-of- entry. Application is made on Form I-192, Application for Advance
      Permission to Enter as a Nonimmigrant. Adjudication procedures are discussed in detail
      in the Adjudicator’s Field Manual Chapter 52. If approved, the alien will be in
      possession of Form I-194, Notice of Approval of Advance Permission to Enter as a
      Nonimmigrant, or the approval may be noted on the alien's border crossing card. If
      otherwise admissible, enter the waiver information, the file number, and the FCO code on
      the reverse side of the Form I-94, along with any conditions or restrictions.

         (3) Section 212(d)(4)(A) Waiver of Passport and/or Visa. (i) A district director has the
      discretion to grant a 212(d)(4)(A) waiver only if the alien clearly demonstrates that an
      unforeseen emergency prevented him or her from acquiring the appropriate passport or
      visa. See generally Matter of LeFloch, 13 I. & N. Dec. 251, 255-56 (BIA 1969)
      (212(d)(4)(A) waiver of student visa denied after U.S. consulate incorrectly informed B
      visa holder that no student visa was necessary; no unforeseen emergency); Matter of V,
      8I & N. Dec. 485.485- 87 (BIA 1959) (no unforeseen emergency where alien had ample
      opportunity in advance of travel to obtain a visa). The term "unforeseen emergency” as
      used in 8 CFR 212.1(g) means:

              an alien arriving for a medical emergency;
          •   an emergency or rescue worker arriving in response to a community disaster or
              catastrophe in the United States;
          •   an alien accompanying or following to join a person arriving for a medical
              emergency;
          •   an alien arriving to visit a spouse, child, parent, or sibling who within the past 5
              days has unexpectedly become critically ill or who within the past 5 days has
              died; or an alien whose passport or visa was lost or stolen within 48 hours of
              departing the last port of embarkation for the United States.

         (ii) In a case where a section 212(d)(4)(A) waiver is under consideration (only in those
      cases identified above), the alien should complete Form I-193 and remit the appropriate
      fee. In the remarks block of the Form I-193, the immigration officer shall describe the
      unforeseen emergency that prevent ed the alien from obtaining the proper documentation.
      The authorizing official shall precisely describe the emergency that prevented the alien
      from acquiring the required documents before arriving in the United States. In addition,
      the authorizing official shall describe precisely why a reasonable person in the alien's
      position could not have anticipated the emergency that predicated his or her arrival in the
      United States without the proper documents. Mark "o/a" in the block designated for
      Department of State concurrence on the Form 1-193. Where a port director or an officer-
      in-charge favorably adjudicates an application for a section 212(d)(4)(A) waiver, the
admitting officer shall stamp the passport using the regular admission stamp, note the
class of admission (i.e., B-1, B-2, etc.), and write, "212(d)(4)(A) unforeseen emergency
waiver" in the alien's passport under the admission
